  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


HIGHMARK MEDICARE SERVICES, INC.,
UNDERSTATED ITS MEDICARE SEGMENT
 PENSION ASSETS AND UNDERSTATED
  THE MEDICARE SEGMENT EXCESS
        PENSION LIABILITIES
       AS OF JANUARY 1, 2012



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        March 2014
                                                       A-07-13-00414
                           Office of Inspector General
                                        https://oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Highmark Medicare Services, Inc., a terminated Medicare contractor, understated the
 Medicare segment pension assets by $4,000 as of January 1, 2012. In addition,
 Highmark understated the Medicare segment excess pension liabilities by $147,000 as a
 result of the Medicare segment closing on January 1, 2012.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
requirement into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets and liabilities in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

The objectives of this review were to determine whether Highmark Medicare Services, Inc.
(Highmark), complied with Federal requirements and the Medicare contracts’ pension
segmentation requirements when (1) implementing the prior audit recommendations to decrease
the Medicare Part A segment pension assets and increase the Medicare Part B segment pension
assets as of January 1, 2002, (2) updating the Medicare segment’s pension assets from January 1,
2002, to January 1, 2012, and (3) determining the Medicare segment excess pension liabilities as
a result of the Medicare segment closing.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2002, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.



Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                             i
We performed a prior pension segmentation audit at Highmark (A-07-04-03050, issued
January 21, 2005), which brought the Medicare Parts A and B segment pension assets to
January 1, 2002. We recommended that Highmark decrease its Medicare Part A segment
pension assets by $2,663,777 and, as a result, recognize $10,808,230 as the Medicare Part A
segment pension assets as of January 1, 2002. We also recommended that Highmark increase its
Medicare Part B segment pension assets by $2,394,501 and, as a result, recognize $41,701,031 as
the Medicare Part B segment pension assets as of January 1, 2002.

In addition, upon the termination of its Medicare contracts, Highmark identified Medicare
segment excess pension liabilities of $5,590,092.

WHAT WE FOUND

Highmark implemented the prior audit recommendations to recognize $10,808,230 as the
Medicare Part A segment pension assets and $41,701,031 as the Medicare Part B segment
pension assets as of January 1, 2002. However, Highmark did not correctly update the Medicare
segment pension assets from January 1, 2002, to January 1, 2012, in accordance with Federal
requirements. Highmark identified Medicare segment pension assets of $82,681,744 as of
January 1, 2012; however, we determined that the Medicare segment pension assets were
$82,685,679. Therefore, Highmark understated the Medicare segment pension assets by $3,935.

Regarding our third objective, Highmark computed the Medicare segment excess pension
liabilities to be $5,590,092 as of January 1, 2012 (the effective date of the sale of Highmark);
however, we determined that the Medicare segment excess pension liabilities were $5,736,689 as
of that date. Highmark understated the Medicare segment excess pension liabilities by $146,597,
because of differences in the identification of the Medicare segment participants and the
Medicare segment pension assets.

WHAT WE RECOMMEND

We recommend that Highmark:

    •   increase Medicare segment pension assets as of January 1, 2012, by $3,935 and recognize
        $82,685,679 as the Medicare segment pension assets,

    •   increase the Medicare segment excess pension liabilities by $146,597 and recognize
        $5,736,689 as the Medicare segment excess pension liabilities as of January 1, 2012, and

    •   work with CMS officials to determine Medicare’s share of the Medicare segment excess
        pension liabilities as of January 1, 2012.

AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations and
described corrective actions that it would take.



Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                         ii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

       Why We Did This Review ............................................................................................... 1

       Objectives ........................................................................................................................ 1

       Background ...................................................................................................................... 1

       How We Conducted This Review.................................................................................... 2

FINDINGS ............................................................................................................................... 2

       Prior Audit Recommendations ......................................................................................... 3

       Update of Medicare Segment Pension Assets ................................................................. 3
           Contributions and Transferred Prepayment Credits Overstated .............................. 4
           Benefit Payments Overstated ................................................................................... 4
           Net Transfers Understated ....................................................................................... 5
           Earnings, Net of Expenses Understated ................................................................... 5

       Medicare Segment Excess Pension Liabilities................................................................. 6

RECOMMENDATIONS ......................................................................................................... 6

AUDITEE COMMENTS......................................................................................................... 7

APPENDIXES

       A: Audit Scope and Methodology ................................................................................. 8

       B: Statement of Market Value of Pension Assets
          for Highmark Medicare Services, Inc.,
          for the Period January 1, 2002, to January 1, 2012 ................................................... 10

       C: Federal Requirements Related to Pension
          Segmentation and Segment Closing Adjustment ...................................................... 13

       D: Allowable and Allocable Title XVIII Pension Costs for
          Highmark Medicare Services, Inc., for Fiscal Years 1992 Through 2009 ............... 15

       E: Auditee Comments .................................................................................................... 16




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                                         iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contracts and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
requirement into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets and liabilities in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

Our objectives were to determine whether Highmark Medicare Services, Inc. (Highmark),
complied with Federal requirements and the Medicare contracts’ pension segmentation
requirements when (1) implementing the prior audit recommendation to decrease the Medicare
Part A segment pension assets and increase the Medicare Part B segment pension assets as of
January 1, 2002, (2) updating the Medicare segment’s pension assets from January 1, 2002, to
January 1, 2012, and (3) determining the Medicare segment excess pension liabilities as a result
of the contract termination.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2002, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and Part B segments into a single Medicare
segment.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
 Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and Pennsylvania, and the District of
Columbia.

Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                1
intermediary and Part B carrier, with those contracts terminating in July 2008 and
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.

We performed a prior pension segmentation audit at Highmark (A-07-04-03050, issued
January 21, 2005), which brought the Medicare Parts A and B segment pension assets to
January 1, 2002. We recommended that Highmark decrease its Medicare Part A segment
pension assets by $2,663,777 and, as a result, recognize $10,808,230 as the Medicare Part A
segment pension assets as of January 1, 2002. We also recommended that Highmark increase its
Medicare Part B segment pension assets by $2,394,501 and, as a result, recognize $41,701,031 as
the Medicare Part B segment pension assets as of January 1, 2002.

In addition, upon the termination of its Medicare contracts, Highmark identified Medicare
segment excess pension liabilities of $5,590,092.

HOW WE CONDUCTED THIS REVIEW

We reviewed Highmark’s implementation of the prior audit recommendation; identification of its
Medicare segment; update of Medicare segment assets from January 1, 2002, to January 1, 2012;
and the Medicare segment’s closing calculation as of January 1, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

Highmark implemented the prior audit recommendations to recognize $10,808,230 as the
Medicare Part A segment pension assets and $41,701,031 as the Medicare Part B segment
pension assets as of January 1, 2002. However, Highmark did not correctly update the Medicare
segment pension assets from January 1, 2002, to January 1, 2012, in accordance with Federal
requirements. Highmark identified Medicare segment pension assets of $82,681,744 as of
January 1, 2012; however, we determined that the Medicare segment pension assets were
$82,685,679. Therefore, Highmark understated the Medicare segment pension assets by $3,935.

Appendix B presents details of the Medicare segment’s pension assets from January 1, 2002, to
January 1, 2012, as determined during our audit. Table 1 on the following page summarizes the
audit adjustments required to update Medicare segment pension assets in accordance with
Federal requirements.




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                          2
                      Table 1: Summary of Audit Adjustments
                                            Per Audit    Per Highmark Difference
Prior Audit Recommendation
  Medicare Segment A                        $10,808,230     $10,808,230       $0
  Medicare Segment B                          41,701,031     41,701,031        0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                         22,507,438     23,265,711   (758,273)
  Benefit Payments                                           (27,605,563)   (27,920,060)     314,497
  Net Transfers Out                                           (1,374,806)    (1,167,083)   (207,723)
  Earnings, Net of Expenses                                    36,757,824     36,102,390     655,434
Understatement of Medicare Segment Assets                                                     $3,935

Regarding our third objective, the CAS requires that a segment closing adjustment be made to
recognize the Medicare segment excess pension liabilities as a result of the termination of the
Medicare contracts. Highmark computed the Medicare segment excess pension liabilities to be
$5,590,092 as of January 1, 2012 (the effective date of the sale of Highmark); however, we
determined that the Medicare segment excess pension liabilities were $5,736,689 as of that date.
Highmark understated the Medicare segment excess pension liabilities by $146,597, because of
differences in the identification of the Medicare segment participants and the Medicare segment
pension assets.

PRIOR AUDIT RECOMMENDATIONS

Highmark implemented the prior audit recommendations (A-07-04-03050), which recommended
that (1) Highmark decrease its Medicare Part A segment pension assets by $2,663,777 and, as a
result, recognize $10,808,230 as the Medicare Part A segment pension assets as of January 1,
2002, and (2) Highmark increase its Medicare Part B segment pension assets by $2,394,501 and,
as a result, recognize $41,701,031 as the Medicare Part B segment pension assets as of
January 1, 2002.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contracts require Medicare contractors to update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the asset base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the relevant language of the Medicare contracts, see
Appendix C.

Highmark did not correctly update the Medicare segment pension assets from January 1, 2002, to
January 1, 2012, in accordance with Federal requirements. Highmark identified Medicare
segment pension assets of $82,681,744 as of January 1, 2012; however, we determined that the
Medicare segment pension assets were $82,685,679. Therefore, Highmark understated the

Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                             3
Medicare segment pension assets by $3,935. The following are our findings regarding the
update of the Medicare segment pension assets from January 1, 2002, to January 1, 2012.

Contributions and Transferred Prepayment Credits Overstated

The audited contributions and transferred prepayment credits 3 are based on the assignable
pension costs. 4 In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
additional details on these Federal requirements, see Appendix C.

Highmark overstated contributions and transferred prepayment credits by $758,273 for the
Medicare segment. The overstatement occurred primarily because of differences in the asset
base used to compute the assignable pension costs. Table 2 below shows the differences
between the contributions and prepayment credits proposed by Highmark and the contributions
and prepayment credits that we calculated during our review.

                                      Table 2: Contributions and
                                    Transferred Prepayment Credits
                                     Per Audit Per Highmark Difference
                              2002     $516,786       $516,786          0
                              2003    1,849,871      1,901,727   (51,856)
                              2004    1,773,004      1,838,992   (65,988)
                              2005    2,015,049      2,131,861 (116,812)
                              2006    1,961,562      2,092,244 (130,682)
                              2007    1,766,434      1,906,833 (140,399)
                              2008    1,700,340      1,823,382 (123,042)
                              2009    4,215,170      4,258,979   (43,809)
                              2010    3,376,929      3,412,982   (36,053)
                              2011    3,332,293      3,381,925   (49,632)
                              Total $22,507,438    $23,265,711 ($758,273)

Benefit Payments Overstated

Highmark overstated benefit payments by $314,497 because Highmark did not correctly identify
some Medicare segment participants’ benefit payments during the audit period. Table 3 on the
following page shows the differences between the Medicare segment benefit payments proposed
by Highmark and the benefit payments that we determined during our review.



3
  A prepayment credit is the amount funded in excess of the pension costs assigned to a cost accounting period that
is carried forward for future recognition.
4
    These are assigned to a specific cost accounting period.

Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                4
                                  Table 3: Benefit Payments
                                Per Audit Per Highmark Difference
                         2002   $2,431,864     $2,411,436    $20,428
                         2003    2,399,291       2,511,326 (112,035)
                         2004    2,349,421       2,456,884 (107,463)
                         2005    2,356,711       2,465,021 (108,310)
                         2006    2,560,500       2,668,810 (108,310)
                         2007    2,594,186       2,574,027    20,159
                         2008    2,731,092       2,710,933    20,159
                         2009    2,940,965       2,920,806    20,159
                         2010    3,403,433       3,382,876    20,557
                         2011    3,838,100       3,817,941    20,159
                         Total $27,605,563    $27,920,060 ($314,497)

Net Transfers Understated

Highmark understated net transfers out of the Medicare segment by $207,723. The
understatement occurred primarily because Highmark incorrectly transferred Medicare segment
participants out of the Medicare segment. This understatement of the net transfer adjustment
resulted in an overstatement of the Medicare segment assets by $207,723.

Earnings, Net of Expenses Understated

Highmark understated investment earnings, less administrative expenses, by $655,434 for the
Medicare segment, because it used incorrect contributions and transferred prepayment credits,
benefit payments, and net transfers (all discussed above), to develop the Medicare segment
pension asset base. In our audited update, we allocated earnings, net of expenses based on the
applicable CAS requirements. Table 4 on the following page shows the differences between
Highmark’s proposed earnings, net of expenses and the amounts that we calculated during our
review. For details on applicable Federal requirements, see Appendix C.




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                           5
                                   Table 4: Earnings, Net of Expenses
                                      Per Audit Per Highmark Difference
                           2002     ($4,497,838)   ($4,498,732)         $894
                           2003        9,041,812      8,831,117     210,695
                           2004        6,305,814      6,167,726     138,088
                           2005        4,603,725      4,461,797     141,928
                           2006        7,627,484      7,429,285     198,199
                           2007        4,885,503      4,771,467     114,036
                           2008     (17,589,143)   (17,150,838) (438,305)
                           2009        8,861,547      8,747,734     113,813
                           2010        8,501,006      8,415,258       85,748
                           2011        9,017,914      8,927,576       90,338
                           Total     $36,757,824    $36,102,390    $655,434

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal regulations (Appendix C) require Highmark to compute a Medicare segment closing
adjustment as a result of the termination of its Medicare contract. 5 Highmark identified
$5,590,092 in Medicare segment excess pension liabilities as of January 1, 2012. However, we
calculated the Medicare segment excess pension liabilities to be $5,736,689 as of that date.
Therefore, Highmark understated the excess pension liabilities by $146,597. The understatement
occurred because Highmark (a) incorrectly identified the final Medicare segment participants as
of January 1, 2012, and (b) understated the Medicare segment’s final market value of pension
assets as of January 1, 2012.

                                          RECOMMENDATIONS

We recommend that Highmark:

    •    increase Medicare segment pension assets as of January 1, 2012, by $3,935 and recognize
         $82,685,679 as the Medicare segment pension assets,

    •    increase the Medicare segment excess pension liabilities by $146,597 and recognize
         $5,736,689 as the Medicare segment excess pension liabilities as of January 1, 2012, and

    •    work with CMS officials to determine Medicare’s share of the Medicare segment excess
         pension liabilities as of January 1, 2012.

5
  CAS 413.50(c)(12) requires that Medicare’s share of the excess pension liabilities be determined using a fraction
of which the numerator is the sum of all pension plan costs allocated to the contract and the denominator is the sum
of the total pension costs assigned to cost accounting periods during those same years. Because Highmark began
using indirect cost rates for its MAC pension costs and given the fact that those indirect cost rates have not been
finalized, we cannot readily determine the sum of the pension plan costs allocated to all contracts. As a result, we
cannot calculate the percentage necessary to determine Medicare’s share of the Medicare segment excess pension
liabilities as of January 1, 2012. However, Appendix D of this report provides the necessary information for CMS
to calculate the fraction and thus determine Medicare’s share of the excess pension liabilities, once Highmark’s
indirect cost rates are finalized.

Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                 6
                                       AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations and
described corrective actions that it would take. Specifically, Highmark agreed to increase the
Medicare segment pension assets by $3,935 (from $82,681,744 to $82,685,679) as of January 1,
2012, and to increase the Medicare segment excess pension liabilities by $146,597 and recognize
$5,736,689 as the Medicare segment excess pension liabilities as of January 1, 2012. In addition,
Highmark agreed to work with CMS officials to finalize Medicare’s share of the Medicare
segment excess pension liabilities as of January 1, 2012.

Highmark’s comments are included in their entirety as Appendix E.




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                         7
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Highmark’s implementation of the prior audit recommendation; identification of its
Medicare segment; update of Medicare segment assets from January 1, 2002, to January 1, 2012;
and the Medicare segment’s closing calculation as of January 1, 2012.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the Medicare segment’s assets, and the Medicare segment’s final assets and liabilities
to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
          Medicare contracts applicable to this audit.

    •     We reviewed the annual actuarial valuation reports prepared by Highmark’s actuarial
          consulting firms, which included the pension plan’s assets, liabilities, normal costs,
          contributions, benefit payments, investment earnings, and administrative expenses. We
          used this information to calculate the Medicare segment assets.

    •     We obtained and reviewed the pension plan documents and Department of
          Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
          assets.

    •     We interviewed Highmark staff responsible for identifying the Medicare segment to
          determine whether the segment was properly identified in accordance with the Medicare
          contracts.

    •     We reviewed Highmark’s accounting records to verify the segment identification and
          benefit payments made to the Medicare segment.

    •     We reviewed the Medicare segment closing calculation prepared by Highmark’s staff
          and its actuarial consulting firms.

    •     We reviewed the prior segmentation audit performed at Highmark (A-07-04-03050) to
          determine the beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the Medicare segment pension assets from January 1, 2002, to

Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                             8
          January 1, 2012, and the Medicare segment’s excess pension liabilities as of
          January 1, 2012.

    •     We reviewed the CMS actuaries’ methodology and calculations.

    •     We provided the results of the review to Highmark officials on July 12, 2013.

We performed this review in conjunction with the following audits and used the information
obtained during this review:

    •   Highmark Medicare Services, Inc., Claimed Some Unallowable Medicare Pension Costs
        for Fiscal Years 2003 Through 2009 (A-07-13-00415); and

    •   Highmark Medicare Services, Inc., Overstated Its Allocable Pension Costs for Calendar
        Years 2008 Through 2011 (A-07-13-00416).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                          9
                                          APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                                    FOR HIGHMARK MEDICARE SERVICES, INC.,
                                                FOR THE PERIOD JANUARY 1, 2002, TO JANUARY 1, 2012

                                                                                               Medicare A      Medicare B      Gateway
                 Description                         Total Company        Other Segments        Segment         Segment        Segment

      Assets January 1, 2002                 1/           $419,745,788         $367,236,527     $10,808,230     $41,701,031

      Prepayment Credits                     2/                      0             (272,072)        272,072               0
      Contributions                          3/             59,915,212           59,670,498         244,714               0
      Other Transactions                     4/               (862,648)            (754,173)        (22,772)        (85,703)
      Earnings                               5/            (34,575,239)         (30,312,688)       (898,632)     (3,363,919)
      Benefit Payments                       6/            (16,373,150)         (13,941,286)       (463,348)     (1,968,516)
      Administrative Expenses                7/             (1,908,513)          (1,673,226)        (49,603)       (185,684)
      Transfers                              8/                      0             (108,367)        397,217        (288,850)

      Assets January 1, 2003                             $425,941,450          $379,845,213     $10,287,878     $35,808,359              $0

      Prepayment Credits                                             0           (1,849,871)        872,345         977,526
      Contributions                                         50,000,000           50,000,000               0               0
      Other Transactions                                             0                    0               0               0
      Earnings                                              86,339,891           77,070,688       2,165,171       7,104,032
      Benefit Payments                                     (16,843,823)         (14,444,532)       (481,658)     (1,917,633)
      Administrative Expenses                               (2,118,081)          (1,890,690)        (53,116)       (174,275)
      Transfers                                                      0              277,739           6,034        (283,773)

      Assets January 1, 2004                             $543,319,437          $489,008,547     $12,796,654     $41,514,236              $0

      Prepayment Credits                                             0           (1,773,004)        864,322         908,682              0
      Contributions                                         50,049,628           50,049,628               0               0              0
      Other Transactions                     9/              6,251,774                    0               0               0      6,251,774
      Earnings                                              66,493,103           59,885,499       1,614,062       4,993,542              0
      Benefit Payments                                     (17,309,109)         (14,959,688)       (496,242)     (1,853,179)             0
      Administrative Expenses                               (3,036,951)          (2,735,161)        (73,719)       (228,071)             0
      Transfers                                                      0              123,277         (60,148)         32,074        (95,203)

      Assets January 1, 2005                             $645,767,882          $579,599,098     $14,644,929     $45,367,284     $6,156,571

      Prepayment Credits                                             0           (2,700,970)        909,461       1,105,588       685,921
      Contributions                                         66,196,005           66,196,005               0               0             0
      Other Transactions                   10/                       0                    0      50,789,364     (50,789,364)            0
      Earnings                                              52,730,381           47,258,669       1,162,309       3,757,354       552,049
      Benefit Payments                                     (18,109,618)         (15,723,982)     (2,356,711)              0       (28,925)
      Administrative Expenses                               (3,386,312)          (3,034,922)        (74,643)       (241,295)      (35,452)
      Transfers                                                      0              300,626      (1,219,194)        800,433       118,135

      Assets January 1, 2006                             $743,198,338          $671,894,524     $63,855,515             $0      $7,448,299




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                                   10
                                                                                               Medicare       Gateway
                 Description                         Total Company        Other Segments       Segment        Segment

      Assets January 1, 2006                             $743,198,338          $671,894,524    $63,855,515     $7,448,299

      Prepayment Credits                                             0           (2,869,698)     1,961,562        908,136
      Contributions                                         48,295,628           48,295,628              0              0
      Other Transactions                                             0                    0              0              0
      Earnings                                              92,498,009           83,522,299      7,948,969      1,026,741
      Benefit Payments                                     (19,303,328)         (16,701,965)    (2,560,500)       (40,863)
      Administrative Expenses                               (3,740,958)          (3,377,948)      (321,485)       (41,525)
      Transfers                                                      0              262,752       (385,373)       122,621

      Assets January 1, 2007                             $860,947,689          $781,025,592    $70,498,688     $9,423,409

      Prepayment Credits                                             0           (2,853,037)     1,766,434      1,086,603
      Contributions                                         50,189,900           50,189,900              0              0
      Other Transactions                                             0                    0              0              0
      Earnings                                              63,914,398           57,921,804      5,221,438        771,156
      Benefit Payments                                     (20,726,511)         (18,074,889)    (2,594,186)       (57,436)
      Administrative Expenses                               (4,112,103)          (3,726,554)      (335,935)       (49,614)
      Transfers                                                      0              445,484       (415,474)       (30,010)

      Assets January 1, 2008                             $950,213,373          $864,928,300    $74,140,965    $11,144,108

      Prepayment Credits                                            0            (3,083,064)     1,700,340      1,382,724
      Contributions                                       251,581,464           251,581,464              0              0
      Other Transactions                                            0                     0              0              0
      Earnings                                           (224,311,425)         (204,125,823)   (17,288,811)    (2,896,791)
      Benefit Payments                                    (22,266,581)          (19,439,087)    (2,731,092)       (96,402)
      Administrative Expenses                              (3,896,623)           (3,545,969)      (300,332)       (50,322)
      Transfers                                                     0              (271,543)       260,076         11,467

      Assets January 1, 2009                             $951,320,208          $886,044,278    $55,781,146     $9,494,784

      Prepayment Credits                                            0            (6,383,660)     4,215,170      2,168,490
      Contributions                                        38,399,318            38,399,318              0              0
      Other Transactions                                            0                     0              0              0
      Earnings                                            149,711,496           138,793,181      9,110,115      1,808,200
      Benefit Payments                                    (24,170,319)          (21,135,537)    (2,940,965)       (93,817)
      Administrative Expenses                              (4,084,853)           (3,786,949)      (248,568)       (49,336)
      Transfers                                                     0              (122,852)       (70,465)       193,317

      Assets January 1, 2010                           $1,111,175,850        $1,031,807,779    $65,846,433    $13,521,638

      Prepayment Credits                                            0            (3,919,500)     3,376,929        542,571
      Contributions                                        51,000,000            51,000,000              0              0
      Other Transactions                   11/                789,658               730,469         49,194          9,995
      Earnings                                            148,749,264           138,065,155      8,850,481      1,833,628
      Benefit Payments                                    (29,412,418)          (25,858,999)    (3,403,433)      (149,986)
      Administrative Expenses                              (5,873,593)           (5,451,714)      (349,475)       (72,404)
      Transfers                                                     0               126,012        (15,984)      (110,028)

      Assets January 1, 2011                           $1,276,428,761        $1,186,499,202    $74,354,145    $15,575,414




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                       11
                                                                                                     Medicare             Gateway
                 Description                         Total Company       Other Segments              Segment              Segment

      Assets January 1, 2011                           $1,276,428,761        $1,186,499,202          $74,354,145          $15,575,414

      Prepayment Credits                                            0            (4,689,416)            3,332,293            1,357,123
      Contributions                                        60,880,000            60,880,000                     0                    0
      Other Transactions                                            0                     0                     0                    0
      Earnings                                            162,094,325           150,601,222             9,414,582            2,078,521
      Benefit Payments                                    (35,512,827)          (31,265,011)           (3,838,100)            (409,716)
      Administrative Expenses                              (6,829,582)           (6,345,339)             (396,668)             (87,575)
      Transfers                                                     0               170,147              (180,573)              10,426

      Assets January 1, 2012                           $1,457,060,677        $1,355,850,805          $82,685,679          $18,524,193
      Per Highmark                         12/          1,457,060,677         1,355,905,594           82,681,744           18,473,339
      Asset Variance                       13/                      0                54,789               (3,935)             (50,854)

ENDNOTES

  1/ We determined the Medicare Parts A and B segment pension assets as of January 1, 2002, based on our prior segmentation audit of Highmark, Inc., of
     Pennsylvania (A-07-04-03050). The amounts shown for the Other segment represent the difference between the Total Company and the Medicare
     segment. All pension assets are shown at market value.

  2/ Transferred prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before
     current year contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover
     funding requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue Service Forms 5500.
     We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
     Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in the Other segment until
     needed to fund pension costs in the future.

  4/ The Other transactions in calendar year (CY) 2002 represent a Mass Mutual prior year adjustment on January 1, 2002. We obtained the Mass Mutual prior
     year adjustment amounts as of January 1, 2002, from Highmark’s 2003 revised CAS asset rollup. These Other transactions impacted both Medicare
     segments’ pension assets.

  5/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment earnings based on the ratio of each segment’s 

     weighted average value (WAV) of assets to Total Company WAV of assets as required by the CAS. 


  6/ We based each Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents 

     provided by Highmark.


  7/ In accordance with CAS, we allocated administrative expenses to each Medicare segment in proportion to investment earnings.

  8/ We identified participant transfers between segments by comparing valuation data files provided by Highmark. Asset transfers were equal to the actuarial
     liability determined under the accrued benefit cost method in accordance with the CAS.

  9/ The Other transactions in CY 2004 represent the merger of the Gateway segment into Highmark on January 1, 2005. We obtained the Gateway pension
     asset amount as of January 1, 2005, from Highmark’s 2005 revised CAS asset rollup. These Other transactions did not impact the Medicare segment
     pension assets.

 10/ The Other transactions in CY 2005 represent the combination of the Medicare Parts A and B segments into one Medicare segment, effective

     January 1, 2006.


 11/ The Other transactions in CY 2010 represent the difference between the January 1, 2010, Total Company asset amount on Highmark’s 2010 and 2011 

     revised CAS asset rollups. These Other transactions were allocated to each segment based on the beginning-of-the-year market value of assets. 


 12/ We obtained total asset amounts from documents prepared by Highmark’s actuarial consulting firm.

 13/ The asset variance represents the difference between our calculation of Medicare segment pension assets and Highmark’s calculation of the Medicare 

     segment pension assets. In addition, Highmark maintained and separately accounted for the Gateway segment in its CAS asset rollups. Because the 

     Gateway segment was accounted for separately by Highmark, we followed the same methodology. Although we identified a Gateway segment asset 

     variance, we will not report on this difference since the Gateway segment does not perform Medicare work and therefore is not subject to our review. 

     However, it was necessary to roll forward the Gateway segment pension assets to properly calculate the Medicare segment pension assets. 



Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                                                                        12
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
             SEGMENTATION AND SEGMENT CLOSING ADJUSTMENT

PENSION SEGMENTATION

Federal Regulations

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                            13
MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Regulations

Federal regulations (CAS 413.50(c)(12)) state:

        If a segment is closed, if there is a pension plan termination, or if there is a
        curtailment of benefits, the contractor shall determine the difference between the
        actuarial liability for the segment and the market value of the assets allocated to
        the segment, irrespective of whether or not the pension plan is terminated. The
        difference between the market value of the assets and the actuarial accrued
        liability for the segment represents an adjustment of previously-determined
        pension costs.

        (i) The determination of the actuarial accrued liability shall be made using the
        accrued benefit cost method. The actuarial assumptions employed shall be
        consistent with the current and prior long term assumptions used in the
        measurement of pension costs ….

        (ii) … The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

        (iv) Pension plan improvements adopted within 60 months of the date of the event
        which increase the actuarial accrued liability shall be recognized on a prorata
        basis using the number of months the date of adoption preceded the event date.
        Plan improvements mandated by law or collective bargaining agreement are not
        subject to this phase-in.

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets and
liabilities in accordance with CAS 413.




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                             14
                                                          APPENDIX D: ALLOWABLE AND ALLOCABLE TITLE XVIII PENSION COSTS FOR

                                                         HIGHMARK MEDICARE SERVICES, INC., FOR FISCAL YEARS 1992 THROUGH 2009



                      Medicare A Segment                  Total Medicare A     Medicare B Segment            Total Medicare B
                         Pension Costs                    Segment Pension    Pension Costs Charged to        Segment Pension          Total Medicare Pension Costs         Total Medicare Segment
Fiscal Year           Charged to Medicare                       Costs                Medicare                      Costs              Charged to Medicare (A + C)           Pension Costs (B + D)
       1/                     (A)                                (B)                    (C)                         (D)                            (E)                                (F)
   1992                        0                                  0                      0                           0                              0                                  0
   1993                     55,213                             62,051                    0                           0                           55,213                             62,051
   1994                     18,981                             20,684                303,825                     316,353                        322,806                            337,037
   1995                     94,469                             94,469                929,240                     932,036                      1,023,709                           1,026,505
   1996                     80,632                             81,225               1,787,413                   1,791,175                     1,868,045                           1,872,400
   1997                    293,692                            302,703               2,120,416                   2,121,265                     2,414,108                           2,423,968
   1998                     92,511                             95,375               1,971,662                   1,972,476                     2,064,173                           2,067,851
   1999                        0                                  0                 1,823,522                   1,823,705                     1,823,522                           1,823,705
   2000                        0                                  0                  442,311                     448,591                        442,311                            448,591
   2001                     70,458                             70,458                    0                           0                           70,458                             70,458
   2002                    408,643                            408,643                    0                           0                          408,643                            408,643
   2003                    778,731                            782,644                733,145                     733,145                       1,511,876                          1,515,789
   2004                    866,328                            866,328                925,893                     925,893                       1,792,221                          1,792,221
   2005                    768,133                           1,954,538              1,171,159                   1,954,538                      1,939,292                          1,954,538
   2006                    805,181                           1,974,934              1,169,753                   1,974,934                      1,974,934                          1,974,934
   2007                    783,447                           1,815,216              1,031,769                   1,815,216                      1,815,216                          1,815,216
   2008                    448,102                           1,716,864               747,008                    1,716,864                      1,195,110                          1,716,864
   2009                        0                              425,085                 11,817                     425,085                         11,817                            425,085

    Total                   $5,564,521                       $10,671,217           $15,168,933                 $18,951,276                     $20,733,454                       $21,735,856


ENDNOTE
1/ This table shows the allocable and allowable Title XVIII pension costs based on the audited pension costs as determined during the pension audits related to the Highmark Medicare Parts A and B
   segments. The information for the Medicare Part A segment for fiscal years (FY) 1992 through 1997 was obtained during a prior audit (A-07-04-00170). The information for the Medicare Part B
   segment for FYs 1992 through 1997 was obtained during a prior audit (A-07-04-00171). The information for the Medicare Parts A and B segments for FYs 1998 through 2002 was obtained during a
   prior audit (A-07-04-00163). The information for fiscal years 2003 through 2009 was obtained during the current review (A-07-13-00415).




Highmark Medicare Services , Inc. Pension Segmentation (A-07-13-00414)                                                                                                                            15
                                APPENDIX E: AUDITEE COMMENTS





                                                <RIGHM/\RK.


            December 9, 2013

            Mr. Patrick Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            Department of Health and Human Services
            601 East 12th Street, Room 0429
            Kansas City, MO 64106

            Subject: OIG Report Number A-07-13- 00414

            Dear Mr. Cogley:

            Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on the U.S.
            Department of Health and Human Services, Office of Inspector General ("OIG"), draft report
            entitled Highmark Medicare Services, Inc., Understated Its Medicare Segment Pension Assets
            and Understated the Medicare Segment Excess Pension Liabilities as ofJanuary 1, 2012.

            We have carefully reviewed both the draft report and the additional detailed supplemental
            information received from the audit team in connection with our review. Our comments on the
            recommendations specific to this report are provided below:

            1.   Highmark agrees that the Medicare segment pension assets as of January 1, 2012 should be
                 increased by $3,935 from $82,681,744 to $82,685,679.

            2. Highmark agrees that the Medicare segment excess pension liabilities should be increased
               by $146,597, and that High mark should thus recognize Medicare segment excess pension
               liabilities of $5,736,689 as of January 1, 2012.

            3. As OIG recognizes in note 5 of the above-referenced report, "CAS 413.50(c)(12) requires that
               Medicare's share of the excess pension liabilities be determined using a fraction of which the
               numerator is the sum of all pension plan costs allocated to the contract and the denominator
               is the sum of the total pension costs assigned to cost accounting periods during those same
               years." Highmark believes that there is no question that this calculation results in a 100%
               allocation of Medicare segment excess pension liabilities to CMS for the period at issue.
               Highmark therefore agrees with the recommendation that we should continue to work with
               CMS officials to finalize CMS's share of the Medicare segment excess pension liabilities as of
               January 1, 2012, which Highmark calculates is $5,736,689.

            While we concur with the overall recommendations in this report, Highmark's detailed
            examination of the individual data elements identified various minor transposition and other
            differences that Highmark does not contest because the net impact of these items is immaterial
                                                      Corporate O(lin·s:
                                                     ( ,;mp t ldl P:\   ! -Oll' J




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                          16
            to the overall findings.

            As Highmark concurs with the recommendations in the above-referenced report, our external
            actuary developed revised figures to utilize in our examination of draft reports A-07-13-00415
            and A-07-13-00416.

            Thank you again for affording Highmark the opportunity to comment on this report. We believe
            that resolution of the issues raised can best be achieved through an open dialogue between the
            government and Highmark. In that regard, please do not hesitate to contact me at (412) 544-
            6902 or through email at Janine.Colinear@Highmark.com if you have any questions regarding
            this response.


            Sincerely,

             -~~-~
            Janine K Colinear
            Chief Accounting Officer
            Highmark Inc.




                     Highmark Medicare Services Inc. Response (A..07-13-oG414)




Highmark Medicare Services, Inc., Pension Segmentation (A-07-13-00414)                                       17
